                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




                     Taxpayers Continue to Own 74% of GMAC
                         (Rebranded as Ally Financial Inc.)
                              from the TARP Bailouts




Special Inspector General for the Troubled Asset Relief Program
                                                              January 30, 2013
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   3




                                          i
INTRODUCTION
General Motors Acceptance Corp. (“GMAC,” which has been rebranded as Ally
Financial Inc., “Ally”) is the second largest remaining TARP investment, with
$14.6 billion in TARP funds owed, for which taxpayers own 74% of the company.
As part of the auto bailouts of General Motors Corp. (“GM”) and Chrysler LLC
(“Chrysler”), the Federal Government made a coordinated rescue of GMAC,
once the auto financing subsidiary of GM. According to Treasury, Government
assistance began flowing to GMAC at the end of 2008 to keep financing available
to creditworthy GM dealers so they could continue to order cars, a function
deemed necessary to sustain the auto industry. Treasury made three sequential
TARP investments in GMAC through TARP’s Auto Industry Financing Program
(“AIFP”), continuing to justify its necessity because of GMAC’s ties to GM and
the auto industry. However, Treasury’s rescue of GMAC was markedly different
from the other auto bailouts because GMAC was the only company in the auto
bailout whose business extended beyond the auto industry. GMAC was one of the
nation’s largest subprime mortgage lenders. Taxpayers were not just bailing out an
auto finance company, they were bailing out one of the nation’s largest lenders of
subprime mortgages.
    GMAC’s TARP assistance was also markedly different because Treasury
never required GMAC to submit a viability plan outlining how it would resolve
substantial liabilities that led to historic losses. Treasury required GM and Chrysler
to submit viability plans and quickly planned for Chrysler Financial Services
Americas LLC’s liquidation. Treasury’s lack of a plan that would address the
subprime mortgage component going into the GMAC investment may be the
primary reason why still today, four years later, GMAC, now rebranded as Ally,
remains in TARP. By continuing to stand behind GMAC and provide repeated
bailouts of a subprime lender, Treasury underlined the moral hazard encompassed
in TARP – GMAC was too big to fail.
    Although the Federal Reserve Board (“Federal Reserve”) required some
restructuring of GMAC as a bank holding company, which was agreed to by
Treasury, neither it nor Treasury addressed GMAC’s subprime mortgage liabilities
through its subsidiary Residential Capital LLC (“ResCap”), where most of its losses
occurred. By not working to fully restructure Ally and ResCap, as it did with GM
and Chrysler, Treasury was merely postponing the resolution of the company’s
substantial mortgage liabilities, and finally in 2012, ResCap filed bankruptcy.
    Taxpayers invested in GMAC because of its auto financing business, but
GMAC also has used TARP funds to cover losses in its subprime business. Because
of ResCap’s losses and other issues, GMAC/Ally has failed Federal Reserve stress
tests designed to gauge financial stability, resulting in the Federal Reserve requiring
GMAC to raise additional capital. The company did so largely through three
taxpayer-funded TARP injections totaling $17.2 billion, of which the Office of
Management and Budget estimates taxpayers will lose $5.5 billion.1 Ally has repaid

i SIGTARP is issuing this report under the Emergency Economic Stabilization Act. The report is based on publicly available information. It
 is not an audit or evaluation under the Inspector General Act of 1978 as amended.
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           only $2.5 billion in principal.ii Other subprime mortgage companies failed without
                                           receiving TARP funds. The Federal Government has sanctioned Ally for improper
                                           mortgage foreclosure practices at ResCap, requiring Ally to pay $316.6 million
                                           while being 74% owned by taxpayers. Ally’s CEO Michael Carpenter called ResCap
                                           a “millstone” around Ally’s neck, and it seems that ResCap also has become a
                                           millstone around taxpayers’ necks.
                                               By failing to have required a fully developed viability plan as a condition of
                                           TARP, Treasury missed an opportunity to address GMAC’s mortgage issues, thereby
                                           better protecting the taxpayers’ investment and promoting GMAC’s financial
                                           stability. Ally’s path to exit TARP now must include a resolution of issues related
                                           to the mortgage liabilities, which should have been addressed when Treasury first
                                           invested or preceding its subsequent investments. According to Treasury, its exit
                                           strategy for its investment in Ally initially encompassed the launching of an initial
                                           public offering of stock. That plan has been sidelined. While Treasury has noted
                                           that it has several options for possible divestment, including a public or private sale
                                           of stock or other sale of Ally assets, Treasury has not decided which of these exit
                                           paths to take. Treasury must exercise great care and coordination with the Federal
                                           Reserve in developing a more concrete TARP exit plan for Ally that takes into
                                           account the need to maintain Ally’s financial stability. It is essential that when the
                                           Government finally exits Ally that it do so forever.




                                           GMAC EXPANDS FROM AUTOS TO SUBPRIME
                                           MORTGAGES PRIOR TO THE TARP BAILOUT
                                           Founded as a wholly owned subsidiary of GM in 1919 to provide auto loans to
                                           consumers buying GM cars and loans to GM auto dealers buying cars for their lots,
                                           GMAC became one of the world’s largest automotive financing companies and was
                                           a dependable source of profit for its parent, GM.2 For years, GMAC had a strong
                                           credit rating that allowed it to get capital at very low rates. GMAC’s auto dealer
                                           financing was profitable with low risk because cars served as collateral for the
                                           dealer loans and the GMAC loans typically required GM to repurchase cars that
                                           remained unsold after a certain amount of time.3 GMAC’s loans to consumers who
                                           bought a GM car also were generally profitable, with the majority of GMAC’s auto
                                           loans considered “prime loans,” meaning that GMAC loaned money to customers
                                           with high credit scores.4
                                               From 1985 to 2005, GMAC aggressively expanded into loaning home
                                           mortgages that were considered subprime.iii Although there is no one definition of
                                           subprime loans, they are generally considered to be loans to customers with low
                                           credit scores. Subprime loans carry risk of delinquencies and defaults. GMAC’s
                                           subprime mortgage business was profitable for years. In 2004, as the housing
                                           ii Ally has also paid $2.9 billion in quarterly dividends to Treasury through December 31, 2012, as required by the terms of its preferred
                                              shares. Treasury received $251.9 million in dividends on its Ally trust preferred securities when they were sold in early 2011.
                                           iii In 1985, GMAC acquired Colonial Mortgage Services and the mortgage servicing platform of Norwest Mortgage Inc. ResCap, S-4,
                                             7/15/2005, p.65, www.sec.gov/Archives/edgar/data/1145701/000095012405004263/k96200sv4.htm, accessed 1/8/2013.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   5




market peaked, mortgage lending and servicing (collecting mortgage loans owned
by others) helped boost GMAC’s net income to a record $2.9 billion.5 The
following year, GMAC organized all its mortgage operations under a new holding
company, Residential Capital, LLC. In addition to ResCap making, purchasing,
selling, and servicing residential mortgages, it also securitized residential mortgages,
meaning it converted loans into bundled assets for investors to purchase.6 ResCap’s
2005 net income surpassed GMAC’s auto lending net income.7 That same year,
GM began losing billions of dollars as it struggled with high costs and weak sales of
new cars.8
     By 2006, GMAC was the nation’s 10th largest mortgage producer, originating
nearly $162 billion in home loans.9 On November 30, 2006, facing more losses
in its auto sales business, GM spun off a controlling interest in GMAC (a 51%
interest) to an investor group led by the private equity fund Cerberus Capital
Management L.P. (“Cerberus”) for $7.4 billion as a way to preserve GMAC’s own
credit ratings, which were crucial to support its lending to GM dealers.10 GMAC
continued to provide loans to GM auto dealers.iv
     But in 2007, losses at ResCap brought GMAC down from its 2006 profits
to significant losses. GMAC reported a 2006 profit of $2.1 billion, then in 2007
reported a loss of $2.3 billion.11 In its 2007 annual report, GMAC reported that its
losses reflected the adverse effects of the disruption in the mortgage, housing, and
capital markets on ResCap, as well as lower gains on GMAC’s insurance business,
which more than offset the strong performance of its auto financing business.12
GMAC further stated that ResCap’s losses came from increases in delinquent loans
and deterioration in the securitization and residential housing markets. GMAC
reduced ResCap’s workforce and restructured the unit in 2007, announcing in
its end of the year annual report that GMAC was investigating various strategic
alternatives including acquisitions, dispositions, alliances, and joint ventures related
to all aspects of the ResCap business.13
     In the third quarter of 2008, GMAC lost $2.5 billion, “primarily attributable
to a significant loss at” ResCap.14 GMAC restructured ResCap in that quarter,
cutting 4,800 jobs, closing all GMAC mortgage retail offices, ceasing making
certain loans, and selling GMAC Home Services business.15 GMAC forgave $101.5
million in debt owed by ResCap, and forgave $95.3 million owed on ResCap notes
held by GMAC.16 When 2008 ended, ResCap had lost nearly $10 billion over
eight quarters, prompting GMAC to warn, “there remains substantial doubt about
ResCap’s ability to continue as a going concern without the support of GMAC.”17
     GMAC’s historically profitable auto finance business lost $2.1 billion in 2008,
its first and only annual loss in the company’s history. The loss was driven by
writedowns on car leases, an increase in credit reserves, weaker consumer and
dealer credit performance, and lower car sales.18 Due to this credit crisis, GMAC
decided to create constraints on its loans — lending only to those with strong credit
scores of 700 or higher. But those constraints lasted only two months, and on
iv Cerberus is a private equity fund that manages $20 billion in assets. The firm specializes in buying distressed companies,
  restructuring their finances, and then selling all or part of them for a profit. In addition to GMAC, Cerberus also controlled Chrysler and
  its auto finance unit, Chrysler Financial, at the time that they received TARP bailouts. Cerberus Capital Management, L.P., “The Firm,”
  www.cerberuscapital.com/the_firm, undated, accessed 1/22/2013.
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           December 30, 2008, just days after receiving $5 billion in TARP funds, it cut the
                                           minimum credit score for borrowers to 620.19




                                           TREASURY’S MULTIPLE TARP BAILOUTS OF
                                           GMAC RESULTED IN TAXPAYERS OWNING AN
                                           INCREASING PERCENTAGE OF GMAC
                                           In a Coordinated Federal Rescue, Treasury Bails Out GMAC
                                           With TARP Funds Because of its Ties to GM
                                           Despite GMAC’s significant losses from ResCap’s subprime mortgage business, it
                                           was its auto financing for GM that would lead the Government to bail it out. In
                                           November 2008, the CEOs of GM, Chrysler, and Ford Motor Co. testified before
                                           Congress requesting Government assistance, saying that at stake was consumer
                                           confidence in the entire U.S. auto industry, as well as millions of jobs that were
                                           directly or indirectly linked to all three Detroit carmakers.
                                               After several weeks of private talks among GMAC, Federal regulators, and
                                           Treasury, a coordinated Government rescue moved forward. GMAC announced on
                                           November 20, 2008, that it had applied to the Federal Reserve to reorganize itself
                                           as a bank holding company, based on its ownership of online bank GMAC Bank.20
                                           GMAC simultaneously applied to Treasury for TARP money.21 As a bank holding
                                           company, GMAC would be eligible to apply for Government assistance from the
                                           Federal Reserve’s discount window, the Federal Deposit Insurance Corporation’s
                                           (“FDIC”) Temporary Liquidity Guarantee Program (“TLGP”), and from TARP’s
                                           Capital Purchase Program (“CPP”), the program in which Treasury was injecting
                                           capital into banks.
                                               GMAC’s application for TARP funds was conditioned on it becoming a bank
                                           holding company. In order for GMAC to become a bank holding company, the
                                           Federal Reserve required that GMAC raise capital levels (consisting of cash and
                                           stock) to $30 billion to absorb losses and that GMAC convince 75% of bondholders
                                           to exchange their notes for discounted preferred stock that would count as
                                           capital.22 GMAC repeatedly extended the debt exchange deadline as it sought to
                                           persuade enough bondholders to participate. According to press reports, some
                                           big bondholders balked, saying they would not participate unless Cerberus first
                                           injected more money into GMAC.23
                                               On December 19, 2008, the President announced $13.4 billion in TARP aid for
                                           GM and Chrysler, and that each had until February 17, 2009, to submit a viability
                                           plan. The viability plan was a strategic plan for long-term profitability that included
                                           concessions from employees, suppliers, creditors, and dealers.24 A White House
                                           fact sheet stated, “Taxpayers will not be asked to provide financing for firms that do
                                           not become viable.”25
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   7




     In a coordinated Federal rescue, five days after the GM and Chrysler
TARP bailouts, in a rare split vote of 4-to-1, the Federal Reserve approved
GMAC’s bank holding company application. The Federal Reserve declared that
“emergency conditions” existed and that “the proposal would benefit the public by
strengthening GMAC’s ability to fund the purchases of vehicles manufactured by
GM and other companies and by helping to normalize the credit markets for such
purposes.”26 The Federal Reserve ordered GMAC to boost its capital by raising $7
billion of new equity. Treasury directly supplied $5 billion of that in TARP funds.
     Although the Federal Reserve required that GMAC make some changes to
its capital structure and its corporate structure in order to meet the regulatory
requirements for bank holding company status and Treasury agreed with these
changes, this requirement did not address ResCap’s mortgage liabilities or other
issues. Treasury’s stated purpose for providing the TARP money (in exchange
for preferred stock) was GMAC’s importance to the auto industry.27 Even as the
Government required that in exchange for TARP money, the automakers GM and
Chrysler plan how they would become financially viable, Treasury rescued GMAC
with TARP funds with no viability requirement that would address the mortgage
liabilities. Treasury’s initial $5 billion direct investment in GMAC had no strings
attached for a plan to ensure repayment of taxpayers’ investment.
     Although GMAC had applied for TARP money from CPP, Treasury instead
tapped TARP’s Automotive Industry Financing Program (“AIFP”) to provide
the bailout funds. “Because the finance companies serve as the lifeblood of the
automakers, we knew that our program would need to address the short-term needs
of the auto finance companies as well,” Assistant Secretary for Financial Stability
Neel Kashkari, who led TARP, said at the time.28 In addition to the direct cash
injection to GMAC, Treasury loaned GM $884 million of TARP money so it could
invest in GMAC’s stock. Cerberus invested $366 million in GMAC stock.29
     According to officials of Treasury’s Auto Team, which formed later, in February
2009, by late 2008 American auto companies lost sales of an estimated 2 million
to 2.5 million vehicles because neither dealers nor customers could obtain credit.30
Steven Rattner, the head of Treasury’s Auto Team, described in his book, Overhaul,
that GMAC and Chrysler Financial depended on being able to borrow from banks,
and the credit crunch had curtailed this source of funding.31 According to Rattner,
another source of funding had been cut off – securitizations – loans to consumers
and dealers that were “bundled, sliced like a layer cake, and sold off in tranches,
typically to investment funds.”32 Accordingly, Rattner explained, as a result, GMAC
and Chrysler Financial “had drastically reduced lending to consumers and dealers,
a major factor in the steep falloff of car sales.”

Treasury Bails Out GMAC With TARP Funds a Second Time
After GMAC Fails Stress Test, With Taxpayer Ownership of
GMAC Increasing to 35%
In February and March 2009, two key Federal efforts were happening
simultaneously that would lead to a second TARP bailout for GMAC. Treasury’s
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           recently constituted Auto Team under the new Administration was assessing
                                           GM’s and Chrysler’s viability plans, and the Federal Reserve and other regulators
                                           were conducting bank stress tests. In the wake of the financial crisis, the Federal
                                           Reserve was examining whether the 19 biggest bank holding companies, including
                                           GMAC, could survive a stress environment. Specifically, the Federal Reserve was
                                           determining whether the companies had enough capital “to withstand a ‘bad state
                                           of the world’ scenario.”33
                                                At the end of the first quarter, Treasury rejected viability plans submitted by GM
                                           and Chrysler, stating that, companies “may well require utilizing the bankruptcy
                                           code in a quick and surgical way.”34 Treasury’s Auto Team began planning for
                                           Chrysler’s bankruptcy. The Auto Team soon realized that a Chrysler bankruptcy
                                           would have severe consequences on Chrysler Financial’s ability to obtain bank
                                           credit.35 According to Rattner, GMAC’s CEO Alvaro de Molina suggested that
                                           GMAC take over loans to consumers and auto dealers for new Chrysler cars.36
                                           Although, according to Rattner, de Molina “had his own agenda,” that is what
                                           Treasury did.37 When Chrysler filed for bankruptcy to reorganize itself on April
                                           30, 2009, GMAC announced it would replace Chrysler Financial in providing
                                           Chrysler dealers with inventory financing and would lend money to consumers to
                                           buy Chrysler vehicles.38 However, even with GMAC’s conversion to a bank holding
                                           company and the infusion of $5 billion from Treasury, and the $884 million TARP-
                                           funded infusion from GM, GMAC began 2009 with a first-quarter loss of $675
                                           million, deeper than its loss in the same quarter one year earlier.39
                                                On May 7, 2009, the Federal Reserve announced the results of the stress tests.
                                           The test found that under the worst-case economic scenario, 18 of the 19 banks
                                           would have capital buffers of various sizes available to help absorb losses, with only
                                           GMAC having a shortfall.40 The Federal Reserve ordered 10 banks to raise capital
                                           by November 2009, including GMAC, which was instructed to raise $9.1 billion
                                           in Tier 1 capital, the capital considered by regulators to cushion losses the best.41
                                           During this period of time, GM was planning for a potential bankruptcy.v
                                                Already a $5 billion direct investor in GMAC, Treasury once again agreed to
                                           a TARP bailout of GMAC of an additional $7.5 billion on May 21, 2009, and
                                           indicated a willingness to provide even more capital if needed. However, with the
                                           results of the stress tests, Treasury stipulated that subsequent TARP investments
                                           would be contingent on the Federal Reserve approving a capital plan to address
                                           its concerns, and a liquidity plan if necessary. Of this $7.5 billion investment, $4
                                           billion would be used to support GMAC taking over Chrysler loans and $3.5 billion
                                           would help GMAC address its capital shortfall requirements arising from the stress
                                           test.42 “A recapitalized GMAC will offer strong credit opportunities, help stabilize
                                           our auto financing market, and contribute to the overall economic recovery,”
                                           Treasury Secretary Timothy F. Geithner said.43 Treasury received a type of preferred
                                           stock that could convert to common stock. This type of stock would count toward
                                           GMAC meeting the stress test requirement.vi Treasury also exercised its right to

                                           v GM filed for Chapter 11 bankruptcy relief on June 1, 2009.
                                           vi In return for its investment, Treasury received $7.5 billion in mandatorily convertible preferred stock (“MCP”) paying a 9% dividend, and
                                             warrants for $375 million more of MCP, which it immediately exercised.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   9




appoint two directors to GMAC’s board.vii Additionally, Treasury exchanged the
$884 million loan it had made to GM to purchase GMAC stock into a 35.4%
common stock ownership of GMAC.44 This marked the first time that Treasury
would have a common stock equity ownership in a privately held company, GMAC.
Treasury through TARP owned a common stock equity ownership in Citigroup,
Inc., but Citigroup was a public company whose stock traded on a public exchange.
   The second TARP bailout was again a coordinated Federal rescue of GMAC
among the Federal Reserve, Treasury, and the FDIC, which gave GMAC access to
the FDIC’s TLGP to issue up to $7.4 billion in new FDIC-guaranteed debt.45

Treasury Bails Out GMAC With TARP Funds a Third Time After
GMAC Fails to Meet Capital Requirements of Stress Tests,
With Taxpayers’ Ownership of GMAC Increasing to 56%
It was not long before GMAC turned to Treasury for help again. Of the 10
companies ordered by the Federal Reserve to raise capital by November 9, 2009,
GMAC was the only one that failed to fully boost its loss-absorbing capital buffer
by the deadline.viii In GMAC’s case, after weeks of discussions among GMAC, the
Federal Reserve, and Treasury, on December 30, 2009, Treasury announced a
third TARP bailout from AIFP of $3.8 billion to meet GMAC’s capital requirement
stemming from the stress test. Of the 10 bank holding companies that had failed
the Federal Reserve stress test earlier in the year, Ally was the only one that
received an extension of time and a reduction in how much capital it was required
to raise.46 The amount was reduced from an earlier gap of $5.6 billion, Treasury
said, because of lower than expected losses related to GM’s bankruptcy filing.47
    The third rescue package was more complicated than the previous ones.
Treasury restructured its earlier aid, converting $3 billion in securities it had
received in the second bailout into common stock to improve GMAC’s quality of
the capital. This increased Treasury’s common stock ownership of GMAC from
35.4% to 56.3%. Treasury also invested an additional $3.8 billion in TARP funds in
GMAC, receiving additional securities in return.ix The bigger ownership stake gave
Treasury the right to select two additional GMAC directors, for a total of four on
the company’s nine-member board.




vii Treasury chose Robert Blakely, the former chief financial officer of Fannie Mae, and Kim Fennebresque, a Wall Street investment
    banker, both of whom remained board directors as of December 31, 2012. Ally, Board of Directors, undated, media.ally.com/index.
    php?s=52&item=122, accessed 1/15/2012.
viii The other banks sold assets, cut dividends, issued new common shares, or converted existing preferred shares to common
     shares. FRB Press Release, untitled, 11/9/2009, www.federalreserve.gov/newsevents/press/bcreg/20091109a.htm, accessed
     1/22/2013.
ix $2.54 billion of Trust Preferred Securities (“TRUPs”), a hybrid debt security senior to all other GMAC capital securities, and $1.25
  billion in MCP securities. Treasury Press Release, “Treasury Announces Restructuring of Commitment to GMAC,” 12/30/2009, www.
  treasury.gov/press-center/press-releases/Pages/tg501.aspx, accessed 1/22/2013. Treasury also received $127 million in warrants
  to purchase TRUPs and $63 million in warrants to purchase MCPs, all of which were exercised immediately. Treasury added a “reset”
  feature to allow a 2011 adjustment of the conversion price under which its MCP could be converted into common shares, if beneficial
  to taxpayers.
  10                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                     GMAC Rebrands as Ally Financial; Treasury Converts
                                                                     Securities to Common Stock, With Taxpayers’ Ownership of
                                                                     GMAC Increasing to 74%
                                                                     GMAC, including its troubled ResCap group, in early 2010 reported its first
                                                                     quarterly profit since Treasury’s infusion of cash, but Treasury continued to
                                                                     increase taxpayers’ ownership in GM, propping up the company’s capital structure.
                                                                     In May 2010, GMAC rebranded itself as Ally Financial Inc. Ally’s CEO testified
Figure 3.1                                                           before the Congressional Oversight Panel that the company was abandoning the
OWNERSHIP IN ALLY FINANCIAL/GMAC                                     name GMAC and focusing on the Ally Bank name because Chrysler dealers would
                                                                     not like doing business “on GM paper.”48
                                                                          Treasury converted nearly half of its preferred shares ($5.5 billion worth)
               GM Trust
 Third-Party
                                                                     into Ally common stock on December 30, 2010, with three direct results.49 First,
 Investors               10%                                         it increased taxpayers’ common stock ownership of Ally to 73.8%.x Second, the
                  8%
                                                                     conversion increased Ally’s proportion of common stock, which bank examiners
 Cerberus 9%                                       United States
                                                   Department
                                                                     consider the most desirable form of regulatory capital to absorb potential losses.
                                          74%
                                                   of the            Third, the conversion removed Ally’s obligation to pay Treasury about $500 million
                                                   Treasury
                                                                     each year in dividend payments because the common stock carried no dividends.xi
                                                                     According to Treasury, the conversion simplified any future efforts on the part of
                                                                     Treasury to reduce its investment in Ally through the sale of its common stock.50
                                                                     However, Ally’s common stock was not, and still is not, publicly traded. It was then,
Notes: Numbers may be affected due to rounding. Treasury owns
73.8% of Ally’s Common Stock (981,971 shares), and $5.9 billion      and still is today, a privately held company. For Treasury to sell its common stock on
in preferred securities that automatically convert to Common
Stock after 7 years.                                                 the public markets, Ally would need to conduct an initial public offering. Figure 3.1
Source: Ally Financial, Inc.: “Ownership Structure,” http://media.
                                                                     summarizes the breakdown of common equity ownership in Ally as of December
ally.com/index.php?s=51, accessed 1/4/2013.                          31, 2012.




                                                                     ALLY’S AUTO FINANCING AND BANKING BUSINESS
                                                                     Ally’s online banking business has grown rapidly since it became a bank holding
                                                                     company. Assets at Ally Bank, which does all its business via the Internet or
                                                                     telephone, have more than tripled since 2007 and reached $92.8 billion as of
                                                                     September 30, 2012, or half of Ally’s companywide assets of $182.5 billion.51 In
                                                                     the final quarter of 2012, Ally Bank repaid all $7.4 billion in debt that it had issued
                                                                     under the FDIC’s Temporary Liquidity Guarantee Program.52 Ally Bank also holds
                                                                     some mortgage loans and servicing rights, not included in ResCap’s bankruptcy
                                                                     reorganization, and said it plans to continue originating what it described as a
                                                                     “modest” number of residential jumbo mortgages for its own portfolio.53

                                                                     x Treasury also owned $5.9 billion in MCPs and $2.7 billion in TRUPs.
                                                                     xi With its larger ownership interest, Treasury gained the right to appoint a total of six directors on Ally’s expanded 11-member board,
                                                                       which Treasury has done. Ally Board of Directors Governance Policy, www.ally.com/files/pdf/policies-charters/ally-risk-board-of-
                                                                       directors-governance-policy.2010-05-01.pdf, 5/1/2010, accessed 1/22/2013. Treasury appointed its fourth member to the Ally
                                                                       board of directors, John Durrett, a strategic adviser to private equity firm Serent Capital, in February 2011. More than 18 months after
                                                                       it was given the right to fill the fifth and sixth seats on Ally’s board, Treasury in August 2012 finally chose Henry Miller, a Wall Street
                                                                       restructuring expert, and Gerald Greenwald, a former chief executive at United Airlines. Treasury Press Release, “Treasury Names
                                                                       Appointee to Ally Board of Directors,” 2/28/2011,” www.treasury.gov/press-center/press-releases/Pages/tg1080.aspx, accessed
                                                                       1/22/2013. Ally Press Release, “Ally Financial Announces John D. Durrett to the Board of Directors,” 2/28/2011, media.ally.com/
                                                                       index.php?s=43&item=447, accessed 1/22/2013. Treasury Press Release, “Treasury Names Appointees to Ally Board of Directors,”
                                                                       8/15/2012, www.treasury.gov/press-center/press-releases/Pages/tg1682.aspx, accessed 1/22/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   11




    Ally’s auto financing relationship with its former parent has changed during
the past four years. In 2010, GM bought subprime lender AmeriCredit Corp. for
$3.5 billion to set up a new U.S. auto financing arm that could also offer car loans
to consumers with non-prime credit scores.54 At the end of 2013, Ally faces the
expiration of a key lending agreement with GM, in which the automaker currently
subsidizes car loans made by Ally to offer cheaper financing on new GM cars to
consumers.55 Loans under the GM contract represented about 18% of Ally’s total
U.S. loan origination volume in the second quarter of 2012, down from 80% five
years ago, according to Fitch Ratings.56 In the international market, GM will no
longer depend upon Ally for support once it completes its $4.2 billion purchase
of Ally’s auto finance operations in Europe, Latin America, and China.57 The sale
agreement was announced by Ally on November 21, 2012, and is subject to regula-
tory approvals. “Both Ally and GM have been trying to diversify away from each
other – GM through buying AmeriCredit (now GMF) and Ally by transforming
itself to a more market-driven independent auto finance company, with increased
share with other auto manufacturers and greater presence in the used car financing
business,” Fitch said.58
    Ally’s anchor business, auto financing, is facing more competition from
traditional banks looking for new sources of profits. Wells Fargo & Company
climbed ahead of Ally to become the biggest lender for both new and used vehicles
in the third quarter of 2012, according to Experian Information Solutions, Inc.,
which tracks the auto financing sector.59 Wells Fargo ranked No. 1 with 5.9% of
the fragmented market for consumer auto loans, followed by Ally with 5.5%, Toyota
with 5.1%, JPMorgan Chase with 4.9%, and Capital One with 3.8%. In 2011, Ally
was the largest independent provider of new retail auto loans, funding one out of
every 10 new car purchases as it originated $43.8 billion in consumer car loans
in North America, Ally said.60 On the dealer side, during the first half of 2012 Ally
financed $30.2 billion of auto dealers’ vehicles and claimed 72% of GM’s and 59%
of Chrysler’s total new North American dealer vehicles.61 In April 2012, Chrysler
notified Ally that it would not renew past April 2013 a preferred financing contract
that provided subsidies for certain consumer loan discounts, a business that
accounted for 6% of Ally’s total U.S. consumer loan originations in the first quarter
of the year.62 In January 2013, Ally securitized $940 million in non-prime auto
loans, its first sale of such loans in several years.63
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TAXPAYER BAILOUTS DID NOT RESOLVE
                                            MORTGAGE LIABILITIES
                                            Treasury Did Not Require GMAC to Submit a Viability Plan to
                                            Resolve Mortgage Liabilities
                                            Treasury did not require GMAC to produce a viability plan to resolve its mortgage
                                            liabilities. In comparison, the other auto industry companies that received TARP
                                            funds through AIFP were required to submit a viability plan. In comparison, in
                                            early 2009, GM had already made public a 117-page plan that laid out data and
                                            specific estimates about how it would cut costs at its plants, eliminate jobs, shrink
                                            its network of auto dealerships, renegotiate its labor union agreements, and win
                                            bondholders’ participation in a debt exchange.64 The Government rejected the plan
                                            as submitted, but some elements formed the basis for GM’s pre-packaged Chapter
                                            11 bankruptcy reorganization, filed June 1, 2009.65
                                                GMAC in 2008 was pursuing funding through TARP’s bank program, CPP.
                                            As a condition of approving GMAC as a bank holding company and subsequently
                                            during the stress tests, the Federal Reserve required the company to undergo some
                                            changes.66 However, these restructuring changes were required to bring GMAC
                                            into compliance with Federal Reserve requirements and requirements for the stress
                                            tests. Treasury’s third infusion of TARP funds was contingent on GMAC receiving
                                            Federal Reserve approval for capital plans, and if separately addressed, liquidity
                                            plans connected with stress tests.67 However, the stress tests were focused mainly
                                            on capital. Without a plan for GMAC’s future viability, taxpayers were investing
                                            without a clear business path for things beyond capital, including operating needs,
                                            expenses, reductions, growth projections, and profitability of the company. Most
                                            importantly, without a viability plan there was no early assessment of how to best
                                            address the problematic liabilities and what later became enforcement issues re-
                                            lated to GMAC’s subprime mortgage arm.
                                                GMAC’s size placed it in a group of 19 largest bank holding companies, those
                                            with more than $100 billion in assets, subjecting it to Federal Reserve stress tests,
                                            which GMAC has repeatedly failed because of ResCap issues.68 The Federal
                                            Reserve also required GMAC to address concerns about its ownership by a private
                                            equity firm as well as its commercial, non-banking activities.69 Because Cerberus
                                            and GM had large business interests outside the banking industry, the Federal
                                            Reserve required each to sharply reduce their ownership stakes in GMAC.xii
                                            The Federal Reserve also forced GM to modify various auto financing exclusiv-
                                            ity arrangements and incentives it had set up with GMAC after selling a majority
                                            stake to Cerberus in 2006.70 To ensure GMAC’s independence as a bank hold-
                                            ing company, the Federal Reserve halted Cerberus’ practice of sharing employees
                                            and consultants with GMAC.71 The Federal Reserve gave GMAC three months
                                            to reconstitute its board of directors with two directors appointed by the Treasury
                                            xii Cerberus was ordered to cut its ownership from 51% to less than 15% of GMAC’s voting shares by distributing equity interests to its
                                              investors. GM was instructed to reduce its 49% stake to less than 10% by transferring shares to an independent trust, which would be
                                              managed by Treasury-appointed trustees who could take up to three years to sell the shares.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   13




trust; one appointed by Cerberus; three independent directors; and GMAC’s chief
executive officer.72

Taxpayers Fund Ally’s Subprime Mortgage Business—With
Ally’s CEO Describing it as the Millstone Around Ally’s Neck
While the bailout of GMAC was described from the start by Treasury as necessary
to save the auto industry, Ally also used TARP money for its subprime mortgage
business. In response to a SIGTARP survey in 2009, Ally told SIGTARP that it
used TARP money to “make auto loans, provide dealer financing, and modify
home loans.”73 According to Ally, $1.3 billion in TARP funds went to Ally Bank for
its “higher risk” mortgages. Ally also made a $2.8 billion capital contribution in
December 2009 to prop up ResCap with a combination of cash, debt forgiveness,
and mortgage loan purchases.74 Ally said in a press statement, “Following these
transactions, GMAC does not expect to incur additional substantial losses from
ResCap and will be better positioned to explore strategic alternatives with respect
to mortgage operations.”75 That turned out not to be true.
     The Congressional Oversight Panel (“COP”) wrote in March 2010 that
ResCap’s “ongoing existence and viability have remained highly doubtful without
continued contributions from its parent. GMAC’s contributions to ResCap would
not have been possible, however, had GMAC not received TARP assistance.”76
Ally’s CEO Carpenter testified before COP on February 25, 2010, “For GMAC,
over the last several years, [ResCap] has been what I have described publicly as
a millstone around the company’s neck. It has been the single-greatest barrier to
the company’s access to the capital markets, it has been the greatest barrier on our
profitability as an enterprise.”77
     For years, ResCap had drained its parent’s resources. Unlike Ally’s auto
finance unit, which lost money in only one year during its nearly 100-year history,
ResCap had soaked up more than $8.5 billion of Ally capital contributions since
2007 in various forms of cash, debt forgiveness, and purchases of ResCap loans
and assets.78 ResCap had been slow to write down the balance sheet value of its
distressed home loans to a level low enough to sell them to buyers. At the same
time, ResCap’s losses totaled $17.8 billion since 2007.79 Figure 3.2 summarizes the
financial performance of Ally’s automobile finance and mortgage operations since
2007.
     In early 2011, the Federal Reserve completed another round of stress tests on
major bank holding companies including Ally, and although the results were not
made public, the Federal Reserve ordered Ally to “make improvements” in areas
including its capital adequacy process, regulatory reporting, risk management, and
board and senior management oversight.80 In Ally’s 2010 annual report filed in early
2011, Ally reported that banking supervisors instructed Ally to reduce its problem
assets and to improve aspects of its home mortgage business.xiii


xiii The improvements were to be in the areas of loan pricing, consumer complaint resolution, internal audits, and fee monitoring. Ally,
   10-K, 2/25/2011, p.13, www.sec.gov/Archives/edgar/data/40729/000119312511047688/d10k.htm, accessed 1/22/2013.
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                   FIGURE 3.2

                                                   AUTO FINANCE AND MORTGAGE OPERATIONS OF GMAC
                                                   (REBRANDED AS ALLY)

                                                   ANNUAL REVENUE ($ BILLIONS)                                         ANNUAL INCOME ($ BILLIONS)
                                                   6                                                                   6

                                                         5                      5         5
                                                   4                                                4.5                4


                                                                    2.8                       2.7
                                                   2                                                                   2                                           2.6
                                                                                                                                                                              2.3
                                                             1.7                                                            1.5
                                                                                                          1.2
                                                                                    .6                                                                 .3                .7
                                                   0                                                                   0
                                                                          -.3                                                                                                       -.7


                                                   -2                                                                  -2                -2.1




                                                   -4                                                                  -4         -4.3


                                                                                                                                                -5.6
                                                   -6                                                                  -6

                                                                                                                                                            -7.1

                                                   -8                                                                  -8
                                                        2007        2008        2009      2010      2011                    2007         2008          2009         2010      2011

                                                                     Auto Finance                                                         Auto Finance
                                                                     Mortgage Operations                                                  Mortgage Operations


                                             ALLY CAPITAL CONTRIBUTIONS TO RESCAP, 2008-2012                                                           ($BILLIONS)

                                                         2008                       2009                        2010                2011                           2012                   TOTAL
                                                             $3.3                        $4                       —           $0.058                               $1.2                    $8.6
                                             Note: Data is from GMAC/Ally 10-Ks, in the year it was reported. Subsequent adjustments may have been made in later corporate
                                             filings. The 2012 capital contribution includes $750 million Ally has offered to pay ResCap creditors to settle potential liabilities.



                                                 Ally has also been seriously sanctioned in a number of Federal actions for
                                            improper mortgage foreclosure practices. In 2010, Ally halted foreclosures in
                                            nearly two dozen states. A ResCap employee testified before Congress that some
                                            of its foreclosure affidavits were signed without a notary present and without
                                            direct personal knowledge of the information in the affidavit.81 In October 2010,
                                            Ally paid $462 million to Fannie Mae in a settlement to release its ResCap
                                            unit from any liability related to poorly underwritten mortgages sold to Fannie
                                            Mae. The agreement protected ResCap from the potential repurchase of $292
                                            billion worth of loans it sold to Fannie Mae.82 In early 2011, the Federal Reserve
                                            ordered Ally and nine other banks to halt what it described as “a pattern of
                                            misconduct and negligence” in mortgage servicing and foreclosure processing
                                            and subsequently sanctioned Ally $207 million for its conduct.83 Soon afterward,
                                            on April 4, 2012, Ally agreed to pay $110 million and to provide $200 million in
                                            principal writedowns, refinancing, and other relief to borrowers in a “Robosigning
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   15




Settlement” with the Federal Government and 49 state attorneys general for
improper foreclosures practices. The settlement cited a number of “deficiencies” in
Ally’s participation in TARP housing programs, its eviction notice and collections
activities, and how it handled pooled mortgage loan insurance and guarantees.84
    Ally failed another Federal Reserve stress test on March 13, 2012, with the
weakest showing among the big bank holding companies tested.85 ResCap clearly
was a factor in Ally’s failure to pass and the test concluded that if the economy
dramatically worsened, Ally would fall short of the Federal Reserve’s minimum
capital ratio requirement of 5% Tier One common equity to risk-weighted assets.86
Ally ranked last among the banks with a stressed ratio of 2.5%.87 The company
protested the test results, saying that the Federal Reserve’s analysis “dramatically”
overstated potential mortgage risk, ignored the contingent capital that already
existed within Ally’s capital structure, and did not reflect management’s
commitment to address its legacy mortgage risks.88
    Soon afterward, on May 14, 2012, after $17.8 billion in mortgage-related losses
since 2007, ResCap filed bankruptcy. “ResCap is one of the last subprime mortgage
lenders of the early 2000s to file for bankruptcy,” according to a report from
Moody’s Analytics.89 Other subprime lenders failed or filed bankruptcy; none of
them were bailed out by the Government through TARP. Ally’s CEO had previously
stated that Ally’s board had considered and rejected bankruptcy for Rescap.90
    ResCap’s bankruptcy did not eliminate Ally’s potential mortgage obligations. As
part of ResCap’s bankruptcy filing, Ally eliminated ResCap from its own balance
sheet and took a $1.2 billion charge-off. That charge-off included $220 million in
loans to fund ResCap’s bankruptcy and $750 million that Ally has offered to pay to
ResCap creditors to settle potential mortgage liabilities upon the bankruptcy court
judge’s confirmation of ResCap’s reorganization plan, which is scheduled to be
submitted in April 2013.91




ALLY STILL OWES TAXPAYERS $14.6 BILLION
AND TREASURY HAS NO CONCRETE TARP EXIT
PLAN FOR ALLY THAT BALANCES REPAYMENT TO
TAXPAYERS WITH ALLY’S FINANCIAL STABILITY
Four years after its first Government bailout, Ally still owes taxpayers $14.6 billion
and Treasury has no concrete exit plan that balances repayment to taxpayers with
Ally’s financial stability. The financial stability of Ally must involve resolution of
Ally’s mortgage liabilities. Three times the Federal government injected billions
of dollars into Ally and not once did it require the company to spell out a plan for
resolving ResCap’s issues. According to Treasury, it planned to exit its investment
in Ally through a public sale of stock. On March 31, 2011, Ally filed for a proposed
initial public offering that would allow Treasury to sell some of its common
shares.92 However, Treasury’s initial plan was sidelined. In May 2012, when
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            ResCap filed for bankruptcy, Treasury stated that Ally’s proposed initial public
                                            offering was delayed because of “intensifying issues” with ResCap’s legacy mortgage
                                            liabilities.93 Treasury now states that its exit plan includes the ResCap bankruptcy
                                            and Ally’s sale of international operations – all of which occurred in 2012.94
                                            However, Treasury does not have a concrete plan for how to dispose of its shares in
                                            Ally after ResCap’s bankruptcy.
                                                As of December 31, 2012, of the $17.2 billion invested in TARP money in
                                            GMAC, taxpayers have received just one principal repayment in the amount of
                                            $2.5 billion, leaving $14.6 billion owed to taxpayers. That payment was received in
                                            March 2011 from the sale of certain securities. No other principal repayments have
                                            been made on the GMAC investment. Ally has paid preferred stock dividends to
                                            the Government totaling $2.9 billion over the years. In addition, Treasury received
                                            $251.9 million in dividends on its Ally trust preferred securities when they were
                                            sold in 2011. It is important to recognize that those payments are in addition to –
                                            not in place of – the TARP principal that taxpayers provided to Ally in 2008 and
                                            2009.
                                                However, taxpayer repayment is only one important factor, as financial stability
                                            is a crucial responsibility of Treasury. Treasury needs to develop a concrete plan to
                                            determine how to dispose of its Ally holdings, while promoting financial stability.
                                            Treasury and Ally have several options that, with approval by Federal Reserve
                                            regulators, can be used alone or in combination.
                                                Ally Buys Back TARP Stock: At the end of the third quarter of 2012,
                                            Ally’s most recently reported financial period, the company’s assets totaled
                                            $182.5 billion.95 The balance sheet assets included $17.2 billion in cash and
                                            cash equivalents. Proceeds of recently announced sales of $9.2 billion worth
                                            of international auto finance assets could be used to pay down Ally’s TARP
                                            obligation.xiv The money raised from Ally’s recent asset sales is also being sought
                                            by a group of ResCap unsecured creditors, who have questioned Ally’s transfer of
                                            assets from ResCap before it filed for bankruptcy protection.96
                                                Treasury Sells its Nearly One Million Shares of Common Stock: Treasury
                                            could sell its nearly one million shares of Ally publicly or in a private sale. In
                                            December 2010, Treasury Secretary Geithner testified before the Congressional
                                            Oversight Panel and was asked about GMAC and any TARP exit plan. He
                                            responded, “We are going to move as quickly as we can to replace the government’s
                                            investments with private capital, take those firms public, figure out a way to exit as
                                            quickly as we can. And we’re working very hard with the management and board of
                                            GMAC to achieve that outcome. I don’t quite — I don’t know how quickly, but it’s
                                            going to be much sooner than we thought six months ago.”97
                                                Although Ally has returned to profitability, factors including ResCap’s drain on
                                            company resources and Ally’s latest failed stress test have postponed Ally’s proposed
                                            initial public offering for 22 months.98 The lack of publicly-traded shares makes
                                            it more difficult for Treasury to sell its shares on the public market. Moreover,
                                            Treasury cannot sell a 74% ownership stake consisting of nearly one million shares
                                            xiv Ally announced sales to several buyers, including its former parent, GM. Ally press release, “Ally Financial Announces Agreement
                                               to Sell Remaining International Operations,” 11/21/2012, media.ally.com/2012-11-21-Ally-Financial-Announces-Agreement-to-Sell-
                                               Remaining-International-Operations, accessed 1/22/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   17




of common stock quickly, and according to Treasury, it may need one to two years
following an initial public offering to dispose completely of its ownership stake.99
    Treasury’s investment in Ally remains unresolved. The results of the Federal
Reserve’s next round of stress tests for the 19 biggest bank holding companies
are scheduled to be made public in March 2013, and it is unknown how much
cash the Federal Reserve will require Ally to keep on its balance sheet to meet
regulatory capital requirements.100 While repayment to taxpayers is a vital concern,
Treasury must remain focused on keeping Ally financially stable. Taxpayers saved
GMAC, and they should not be put in the position of needing to save the company
again. Given the Federal Reserve’s position that Ally cannot survive a stressed
environment, and Treasury’s historic position that Ally’s failure could have a domino
adverse effect on GM (which will remain in TARP for one or more years to
come) and the auto industry, Treasury must take great care in its exit of its TARP
investments in Ally to promote financial stability so that history does not repeat
itself.
    Treasury must work together with Federal banking regulators to develop a plan
to exit Treasury’s investment in Ally that includes the TARP program’s objective of
financial stability. That kind of cooperation took place in late 2008 when regulators
put together a plan to recapitalize Ally. However, Treasury and Ally did not map out
a clear path before any of the three infusions of TARP capital to address ResCap’s
liabilities. Instead, almost three and half years after the initial bailout, ResCap
filed bankruptcy. In coordinated discussions, Treasury and the Federal banking
regulators must now develop a path to repay taxpayers while leaving Ally (and GM
and the auto industry) in a position of strength going forward.
                    ENDNOTES
18            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     1.	    Office of Management and Budget, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.
            gov/sites/default/files/omb/reports/tarp_report_august_2012.pdf, p. 4, accessed 11/29/2012.
     2.	    GM Heritage Center, “General Motors Acceptance Corporation,” history.gmheritagecenter.com/wiki/index.php/General_Motors_Acceptance_
            Corporation_(GMAC), accessed 11/26/2012.
     3.	    Congressional Oversight Panel, “The Unique Treatment of GMAC Under the TARP,” 3/10/2010, p. 8, cybercemetery.unt.edu/archive/
            cop/20110402042135/http://cop.senate.gov/documents/cop-031110-report.pdf, accessed 12/4/2012.
     4.	    GMAC, 10-K, 2/27/2008, p. 20, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 1/8/2013.
     5.	    GMAC, 10-K, 3/16/2005, p. 7, www.sec.gov/Archives/edgar/data/40729/000095012405001563/k91417e10vk.htm, accessed 1/3/2013.
     6.	    GMAC, 10-K, 2/27/2008, p. 2, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm, accessed
            1/15/2013.
     7.	    GMAC, 10-K, 3/28/2006, p. 18, www.sec.gov/Archives/edgar/data/40729/000095012406001524/k01870e10vk.htm, accessed 1/8/2013.
     8.	    GM, 10-K, 3/28/2006, www.sec.gov/Archives/edgar/data/40730/000095012406001534/k03376e10vk.htm, p. II-3, accessed 1/10/2013.
     9.	    Inside Mortgage Finance Publications, Inc., The 2009 Mortgage Market Statistical Annual.
     10.	   GMAC, 10-K, 2/27/2008, p. 1, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 12/31/2012; GM
            Press Release, “GM Reaches Agreement to Sell Controlling Stake in GMAC,” 4/3/2006, archives.media.gm.com/archive/documents/domain_3/
            docId_24800_pr.html, accessed 11/26/2012; GM Press Release, “GM Completes the Sale of a Controlling Interest in GMAC,” 11/30/2006,
            archives.media.gm.com/archive/documents/domain_3/docId_30932_pr.html, accessed 11/26/2012.
     11.	   GMAC, 10-K, 2/27/2008, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm, accessed
            12/6/2012; GMAC, 10-K, 3/13/2007, www.sec.gov/Archives/edgar/data/40729/000095012407001471/0000950124-07-001471-index.htm,
            accessed 12/6/2012.
     12.	   GMAC, 10-K, 2/27/2008, p. 22, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 12/31/2012.
     13.	   GMAC. 10-K, 2/27/2008, p. 2, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm, accessed
            12/31/2012.
     14.	   GMAC Press Release, “GMAC Financial Services Reports Preliminary Third Quarter 2008 Financial Results,” 11/5/2008, http://media.ally.com/
            index.php?s=43&item=286, accessed 1/15/2008; GMAC, 10-Q, 11/10/2008, www.sec.gov/Archives/edgar/data/40729/000095015208009024/
            g46784e10vq.htm, p. 50, accessed 1/15/2013.
     15.	   GMAC Press Release, “GMAC Financial Services and ResCap Announce Further Streamlining of Mortgage Operation,” 9/3/2008, media.ally.
            com/index.php?s=43&item=273, accessed 1/15/2013.
     16.	   GMAC Press Release, “GMAC Financial Services Reports Preliminary Third Quarter 2008 Financial Results,” 11/5/2008.
     17.	   GMAC, 10-K, 2/27/2009, p. 27 and p. 73, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm, accessed 1/4/2013;
            GMAC, 10-K, 2/27/2008, p. 20, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 1/8/2013.
     18.	   GMAC. 10-K, 2/27/2009, pp. 29-30, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm, accessed 1/4/2013.
     19.	   GMAC Press Release, “GMAC to Expand Retail Auto Financing,” 12/30/2008, media.ally.com/index.php?s=43&item=300, accessed 1/8/2013.
     20.	   GMAC Press Release, “GMAC Files Application With Federal Reserve to Become Bank Holding Company,” 11/20/2008, media.ally.com/index.
            php?s=43&item=288, accessed 11/30/2012.
     21.	   GMAC Press Release, “GMAC Files Application With Federal Reserve to Become Bank Holding Company,” 11/20/2008, media.ally.com/index.
            php?s=43&item=288, accessed 11/30/2012.
     22.	   GMAC Press Release, “GMAC Announces That the Results of Its Exchange Offers are Insufficient to Meet Regulatory Capital Requirements
            To Become a Bank Holding Company, 12/20/2008, media.ally.com/index.php?s=43&item=293&printable, accessed 11/30/2012; FRB, “Applying
            Supervisory Guidance and Regulations on the Payment of Dividends, Stock Redemptions, and Stock Repurchases at Bank Holding Companies,”
            revised 3/27/2009, www.federalreserve.gov/boarddocs/srletters/2009/SR0904.pdf, accessed 12/6/2012.
     23.	   Wall Street Journal, “GMAC Bondholders Balk at Debt Swap,” 12/11/2008, online.wsj.com/article/SB122891574162094585.html, accessed
            12/3/2012; New York Times DealBook, “GMAC’s Bondholders Near Key Deadline,” 12/24/2008, dealbook.nytimes.com/2008/12/24/gmacs-
            bondholders-near-crucial-deadline/, accessed 1/4/2013; Bloomberg, “GMAC Swap Remains Short of Goal as Pimco Holds Out (Update 1),”
            12/18/2008, www.bloomberg.com/apps/news?pid=newsarchive&sid=adlTWMv.To_U&refer=news, accessed 1/4/2013.
     24.	   White House, “Fact Sheet: Financing Assistance to Facilitate the Restructuring of Auto Manufacturers to Attain Financial Viability,”
            12/19/2008, georgewbush-whitehouse.archives.gov/news/releases/2008/12/20081219-6.html, accessed 12/7/2012.
     25.	   White House, “Fact Sheet: Financing Assistance to Facilitate the Restructuring of Auto Manufacturers to Attain Financial Viability,”
            12/19/2008, georgewbush-whitehouse.archives.gov/news/releases/2008/12/20081219-6.html, accessed 12/7/2012.
     26.	   FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
            federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
     27.	   SIGTARP, Initial Report to Congress, 2/6/2009, p. 78, www.sigtarp.gov/Quarterly%20Reports/SIGTARP_Initial_Report_to_the_Congress.pdf,
            accessed 11/30/2012.
     28.	   SIGTARP, Initial Report to Congress, 2/6/2009, p. 78, www.sigtarp.gov/Quarterly%20Reports/SIGTARP_Initial_Report_to_the_Congress.pdf,
            accessed 12/3/2012.
     29.	   Congressional Oversight Panel, Testimony of Ron Bloom, senior advisor to the Treasury Secretary, 2/25/2010, Note 9 on p. 4, cybercemetery.
            unt.edu/archive/cop/20110402012152/http://cop.senate.gov/documents/transcript-022510-gmac.pdf, accessed 12/7/2012.
     30.	   SIGTARP, Quarterly Report to Congress, 7/21/2009, p. 112, www.sigtarp.gov/Quarterly%20Reports/July2009_Quarterly_Report_to_Congress.
            pdf, accessed 11/30/2012.
     31.	   Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
            Harcourt, 2010, p. 145.
     32.	   Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
            Harcourt, 2010, p. 145.
     33.	   William C. Dudley, Federal Reserve Bank of New York, “U.S. Experience with Bank Stress Tests,” www.newyorkfed.org/newsevents/
            speeches/2011/dud110627.html, accessed 12/11/2012.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013               19


34.	   Fact Sheet, “Obama Administration New Path to Viability for GM & Chrysler,” 3/30/2009, www.whitehouse.gov/assets/documents/Fact_Sheet_
       GM_Chrysler.pdf, accessed 1/14/2013.
35.	   Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
       Harcourt, 2010, p. 147.
36.	   Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
       Harcourt, 2010, p. 147.
37.	   Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
       Harcourt, 2010, p. 147.
38.	   GMAC Press Release, “GMAC Financial Services Enters Agreement to Provide Financing for Chrysler Dealers and Customers,” 4/30/2009,
       media.gmacfs.com/index.php?s=43&item=324, accessed 12/4/2012.
39.	   GMAC, 10-Q, 5/11/2009, p. 3, www.sec.gov/Archives/edgar/data/40729/000119312509105735/d10q.htm, accessed 1/4/2013; Ally
       Press Release, “GMAC Financial Services Reports Preliminary First Quarter 2009 Financial Results,” 5/5/2009, media.ally.com/index.
       php?s=43&item=326, accessed 12/4/2012.
40.	   FRB, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, Figure 8 on p. 14, www.federalreserve.gov/newsevents/
       press/bcreg/bcreg20090507a1.pdf, accessed 12/4/2012.
41.	   FRB, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, www.federalreserve.gov/newsevents/press/bcreg/
       bcreg20090507a1.pdf, accessed 12/4/2012; Ally Press Release, “GMAC Financial Services Confirms Capital Requirements Resulting from the
       Supervisory Capital Assessment Program,” 5/7/2009, media.ally.com/index.php?s=43&item=327, accessed 12/4/2012.
42.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury Press Release, “Treasury Announces Additional Investment
       in GMAC LLC,” 5/21/2009, www.treasury.gov/press-center/press-releases/Pages/tg154.aspx, accessed 12/4/2012; Treasury, Office of Financial
       Stability Auto Team, SIGTARP interview, 6/1/2009.
43.	   Treasury Press Release, “Treasury Announces Additional Investment in GMAC LLC,” 5/21/2009, www.treasury.gov/press-center/press-releases/
       Pages/tg154.aspx, accessed 12/4/2012.
44.	   Treasury Press Release, “Treasury Announces Additional Investment in GMAC LLC,” 5/21/2009, www.treasury.gov/press-center/
       press-releases/Pages/tg154.aspx, accessed 12/4/2012; Ally, S-1 Amendment No. 7, 10/5/2012, p. 55, www.sec.gov/Archives/edgar/
       data/40729/000119312512416511/0001193125-12-416511-index.htm, accessed 12/7/2012.
45.	   GMAC Press Release, “GMAC Financial Services Announces Key Capital and Liquidity Actions,” 5/21/2009, http://media.ally.com/index.
       php?s=43&item=331, accessed 12/4/2012; Ally paid back the FDIC TLGP debt in October 2012, and December 2012. Ally Press Release, “Ally
       Financial Repays Remaining $4.5 billion of Debt Issued Under TLGP,” 12/19/2012.
46.	   Treasury Press Release, “Treasury Announcement Regarding the Capital Assistance Program,” 11/9/2009, www.treasury.gov/press-center/press-
       releases/Pages/tg359.aspx, accessed 1/22/2013; Federal Reserve, Press Release, untitled, 11/9/2009, www.federalreserve.gov/newsevents/press/
       bcreg/20091109a.htm, accessed 1/22/2013.
47.	   Treasury Press Release, “Treasury Announces Restructuring of Commitment to GMAC,” 12/30/2009, www.treasury.gov/press-center/press-
       releases/Pages/tg501.aspx, accessed 12/5/2012.
48.	   Congressional Oversight Panel, hearing transcript, “GMAC Financial Services and the Troubled Asset Relief Program,” 2/25/2010, p. 59,
       cybercemetery.unt.edu/archive/cop/20110402012152/http://cop.senate.gov/documents/transcript-022510-gmac.pdf, accessed 12/6/2012; Ally
       press release, “Ally Financial Statement on New Corporate Brand,” 5/10/2010, media.ally.com/index.php?s=43&item=401, accessed 12/6/2012.
49.	   Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
       center/press-releases/Pages/tg1014.aspx, accessed 12/6/2012; Ally, S-1 Amendment No. 7, 10/5/2012, p. 56, www.sec.gov/Archives/edgar/
       data/40729/000119312512416511/0001193125-12-416511-index.htm, accessed 12/7/2012.
50.	   Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
       center/press-releases/Pages/tg1014.aspx, accessed 12/6/2012.
51.	   Ally, 10-Q, 11/2/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/7/2013; Ally Press
       Release, “Ally Financial Reports Preliminary Third Quarter 2012 Financial Results,” 11/2/2012, media.ally.com/2012-11-02-Ally-Financial-
       Reports-Preliminary-Third-Quarter-2012-Financial-Results, accessed 1/7/2013.
52.	   Ally Press Release, “Ally Financial Repays Remaining $4.5 Billion of Debt Issued Under TLGP,” 12/19/2012, media.ally.com/2012-12-19-Ally-
       Financial-Repays-Remaining-4.5-Billion-of-Debt-Issued-Under-TLGP, accessed 1/7/2013.
53.	   Ally, 10-Q, 11/2/2012, p. 12, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/7/2013.
54.	   GM Press Release, “GM to Acquire AmeriCredit,” 7/22/2010, media.gm.com/media/us/en/gm/news.detail.html/content/Pages/news/us/en/2010/
       July/0722_americredit.html, accessed 1/7/2013.
55.	   Ally, 10-K, 2/28/2012, p. 47, www.sec.gov/Archives/edgar/data/40729/000004072912000011/gjm2011123110k.htm, accessed 1/7/2013.
56.	   Fitch Ratings, “Fitch: Ally’s Potential Sale of International Units to GM May Offer Benefits,” 8/14/2012, www.businesswire.com/news/
       home/20120814006512/en/Fitch-Allys-Potential-Sale-International-Units-GM, accessed 1/7/2013.
57.	   Ally Press Release, “Ally Financial Announces Agreement to Sell Remaining International Operations,” 11/21/2012, media.ally.com/2012-11-21-
       Ally-Financial-Announces-Agreement-to-Sell-Remaining-International-Operations, accessed 1/7/2013.
58.	   Fitch Ratings, “Fitch: Ally’s Potential Sale of International Units to GM May Offer Benefits,” 8/14/2012, www.businesswire.com/news/
       home/20120814006512/en/Fitch-Allys-Potential-Sale-International-Units-GM, accessed 1/7/2013.
59.	   Experian Auto, “State of the Automotive Finance Market – Third Quarter 2012,” 12/4/2012.
60.	   Ally, S-1 Amendment No. 7, 10/5/2012, p. 3, www.sec.gov/Archives/edgar/data/40729/000119312512416511/0001193125-12-416511-index.
       htm, accessed 12/10/2012.
61.	   Ally, S-1 Amendment No. 7, 10/5/2012, p. 3, www.sec.gov/Archives/edgar/data/40729/000119312512416511/0001193125-12-416511-index.
       htm, accessed 12/10/2012.
62.	   Ally, S-1A, 10/5/2012, p. 50, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 12/17/2012.
20            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     63.	   Capital Auto Receivables Asset Trust 2013-1, Final Prospectus Supplement, 1/11/2013, www.sec.gov/Archives/edgar/
            data/893958/000119312513016032/d464836d424b5.htm, accessed 1/24/2013; Moody’s Investors Service, Press Release, “Moody’s
            assigns provisional ratings to Capital Auto Receivables Asset Trust 2013-1,” 1/18/2013, www.moodys.com/researchdocumentcontentpage.
            aspx?docid=PBS_SF314075, accessed 1/24/2013.
     64.	 GM, “2009-2014 Restructuring Plan,” 2/17/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/
            Documents/GMRestructuringPlan.pdf, accessed 12/5/2012; Chrysler’s separate plan was released the same day, “Chrysler Restructuring Plan
            for Long-Term Viability,” www.media.chrysler.com/dcxms/assets/attachments/Chrysler_Restructuring_Plan_Summary.pdf, accessed 12/5/2012.
     65.	 	 In re: Motors Liquidation Company, U.S. Bankruptcy Court for the Southern District of New York, Case No. 09-50026, Voluntary Petition for
            Chapter 11, www.motorsliquidationdocket.com/pdflib/01_50026.pdf, accessed 1/14/2013.
     66.	 FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
            federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
     67.	 Treasury, comments to SIGTARP vetting draft, 1/15/2013.
     68.	 SIGTARP, “Exiting TARP: Repayments by the Largest Financial Institutions,” 9/29/2011, www.sigtarp.gov/Audit%20Reports/Exiting_TARP_
            Repayments_by_the_Largest_Financial_Institutions.pdf, accessed 1/15/2013.
     69.	 FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
            federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
     70.	 FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
            federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012; Congressional Oversight Panel, “The Unique
            Treatment of GMAC Under the TARP,” March 10, 2010, p. 28, cybercemetery.unt.edu/archive/cop/20110402042135/http://cop.senate.gov/
            documents/cop-031110-report.pdf, accessed 12/4/2012.
     71.	 FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
            federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
     72.	 GMAC Press Release, “GMAC Announces Interim Changes to Its Board,” 1/9/2009, media.ally.com/index.php?s=43&item=302, accessed
            12/4/2012.
     73.	 SIGTARP, “SIGTARP Survey Demonstrates That Banks Can Provide Meaningful Information on Their Use of TARP Funds,” 7/20/2009, www.
            sigtarp.gov/Audit%20Reports/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningfu_%20Information_On_Their_Use_Of_
            TARP_Funds.pdf, accessed 1/15/2013; SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.
            sigtarp.gov/Audit%20Reports/Additional_Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 1/15/2013.
     74.	 GMAC, 10-K, 3/1/2010, p. 127, www.sec.gov/Archives/edgar/data/40729/000119312510043252/d10k.htm, accessed 1/15/2013.
     75.	 GMAC Press Release, “GMAC Financial Services Announces Key Capital and Strategic Actions,” 12/30/2009, http://media.ally.com/index.
            php?s=43&item=377, accessed 12/5/2012.
     76.	 Congressional Oversight Panel, “The Unique Treatment of GMAC Under the TARP,” 3/10/2010, p. 41, http://cybercemetery.unt.edu/archive/
            cop/20110402042135/http://cop.senate.gov/documents/cop-031110-report.pdf, accessed 11/26/2012.
     77.	 Congressional Oversight Panel, hearing transcript, “GMAC Financial Services and the Troubled Asset Relief Program,” 2/25/2010, p. 54, http://
            cybercemetery.unt.edu/archive/cop/20110402012152/http://cop.senate.gov/documents/transcript-022510-gmac.pdf, accessed 12/7/2012.
     78.	 Ally, 10-K, 2/28/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000011/gjm2011123110k.htm, accessed 12/05/2012; Ally, 10-K,
            2/25/2011, www.sec.gov/Archives/edgar/data/40729/000119312511047688/0001193125-11-047688-index.htm, accessed 12/6/2012; GMAC,
            10-K, 3/1/2010, www.sec.gov/Archives/edgar/data/40729/000119312510043252/0001193125-10-043252-index.htm, accessed 12/6/2012;
            GMAC, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/0001193125-09-039567-index.htm, accessed
            12/6/2012; GMAC, 10-K, 2/27/2008, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm,
            accessed 12/6/2012; Ally Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to
            Repay U.S. Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 1/8/2013; Ally, 10-Q, 8/3/2012, p. 10, www.sec.gov/
            Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 1/8/2013.
     79.	 Ally, 10-K, 2/28/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000011/gjm2011123110k.htm, accessed 12/05/2012; Ally,
            10-K, 2/25/2011, www.sec.gov/Archives/edgar/data/40729/000119312511047688/0001193125-11-047688-index.htm, accessed 12/6/2012;
            GMAC, 10-K, 3/1/2010, www.sec.gov/Archives/edgar/data/40729/000119312510043252/0001193125-10-043252-index.htm, accessed
            12/6/2012; GMAC, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/0001193125-09-039567-index.htm,
            accessed 12/6/2012; GMAC, 10-K, 2/27/2008, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.
            htm, accessed 12/6/2012; Ally, 10-Q, 8/3/2012, p. 10, www.sec.gov/Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm,
            accessed 1/8/2013.
     80.	 FRB Press Release, untitled, 3/18/2011, www.federalreserve.gov/newsevents/press/bcreg/20110318a.htm, accessed 12/6/2012; Ally, 10-K,
            2/25/2011, p. 13, www.sec.gov/Archives/edgar/data/40729/000119312511047688/d10k.htm, accessed 12/7/2012.
     81.	 Testimony of Thomas Marano, chief executive of Ally mortgage operations, U.S. House Subcommittee on Housing and Community Opportunity
            hearing, “Robo-Signing, Chain of Title, Loss Mitigation, and Other Issues in Mortgage Servicing,” 11/18/2010, www.gpo.gov/fdsys/pkg/
            CHRG-111hhrg63124/pdf/CHRG-111hhrg63124.pdf, accessed 1/8/2013; Ally Press Release, “GMAC Mortgage Provides Update on Mortgage
            Servicing Process,” 9/24/2010, media.ally.com/index.php?s=43&item=417, accessed 12/6/2012.
     82.	 Ally Press Release, “GMAC Mortgage Statement on Independent Review and Foreclosure Sales,” 10/12/2010, media.ally.com/index.
            php?s=43&item=421, accessed 12/6/2012.
     83.	 Ally Consent Order issued by FRB, 4/13/2011, federalreserve.gov/newsevents/press/enforcement/enf20110413a3.pdf, accessed 1/4/2013; FRB
            press release, untitled, 4/13/2011, federalreserve.gov/newsevents/press/enforcement/20110413a.htm, accessed 12/7/2012; FRB press release,
            untitled, 2/9/2012, www.federalreserve.gov/newsevents/press/enforcement/20120209a.htm, accessed 1/4/2013; FRB Order of Assessment of a
            Civil Money Penalty, 4/13/2012, www.federalreserve.gov/newsevents/press/enforcement/enf20120213a1.pdf, accessed 1/4/2013.
     84.	 Consent Judgment filed in U.S. District Court for the District of Columbia, case 12-cv-00361, 4/4/2012, d9klfgibkcquc.cloudfront.net/
            Consent_Judgment_Ally-4-11-12.pdf, Exhibit F, accessed 1/4/2013; National Mortgage Settlement, “Fact Sheet: Mortgage Servicing
            Settlement,” undated, d9klfgibkcquc.cloudfront.net/Mortgage_Servicing_Settlement_Fact_Sheet.pdf, accessed 12/13/2012.
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013               21


85.	   FRB Press Release, untitled, 3/13/2012, www.federalreserve.gov/newsevents/press/bcreg/20120313a.htm, accessed 12/9/2012.
86.	   FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” 3/13/2012, www.
       federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 12/11/2012.
87.	 FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” 3/13/2012, www.
       federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 12/11/2012.
88.	 Ally Press Release, “Ally Financial Statement on the Federal Reserve’s Comprehensive Capital Analysis and Review,” 3/13/2012, http://media.
       ally.com/index.php?s=43&item=527, accessed 12/10/2012.
89.	 Moody’s Analytics, “Residential Capital LLC,” 5/22/2012, accessed 12/5/2012.
90.	 GMAC Press Release, “GMAC Financial Services Announces Key Capital and Strategic Actions,” 12/30/2009, media.ally.com/index.
       php?s=43&item=377, accessed 12/5/2012; Reuters, “GMAC sees $5 billion Q4 loss after latest bailout,” 1/5/2010, www.reuters.com/
       article/2010/01/05/gmac-idUSN0511068420100105, accessed 12/5/2012.
91.	 	 In re: Residential Capital, LLC, U.S. Bankruptcy Court for the Southern District of New York, Case No. 12-12020, “Order Further Extending
       the Exclusive Periods During Which Only the Debtors May File a Chapter 11 Plan and Solicit Acceptances Thereof,” 12/20/2012, www.
       kccllc.net/documents/1212020/1212020121220000000000016.pdf, accessed 1/8/2013; Ally, 10-Q, 11/2/2012, www.sec.gov/Archives/edgar/
       data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/7/2013.
92.	 Ally, S-1, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/0001193125-11-084175-index.htm3/3102011, accessed
       12/6/2012.
93.	 Treasury, “Treasury Notes,” last updated 9/13/2012, www.treasury.gov/initiatives/financial-stability/news-room/news/Pages/Putting-Taxpayers-in-
       a-Stronger-Position-to-Continue-Recovering-Their-Investment-in-Ally-Financial.aspx, accessed 12/6/2012.
94.	 Treasury, comments to SIGTARP vetting draft, 1/15/2013.
95.	 Ally, 10-Q, 11/2/2012, p. 5, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/4/2013.
96.	 	 In re: Residential Capital, LLC, U.S. Bankruptcy Court for the Southern District of New York, Case No. 12-12020, Statement of Wilmington
       Trust, N.A. to Debtors’ Motion for a Supplemental Order, 11/26/2012, www.kccllc.net/documents/1212020/1212020121126000000000015.
       pdf, accessed 12/31/2012.
97.	 Timothy Geithner, “Hearing Before the Congressional Oversight Panel,” 12/10/2010, cybercemetery.unt.edu/archive/cop/20110402013346/
       http://cop.senate.gov/documents/transcript-121610-geithner.pdf, accessed 12/14/2012.
98.	 Ally, 10-Q, 11/2/2012, p. 4, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 12/11/2012.
99.	 Congressional Oversight Panel, “An Update on TARP Support for the Domestic Automotive Industry,” 1/13/2011, p. 87, cybercemetery.unt.edu/
       archive/cop/20110402010325/http://cop.senate.gov/documents/cop-011311-report.pdf, accessed 1/8/2013.
100.	 FRB Press Release, 11/9/2012, www.federalreserve.gov/newsevents/press/bcreg/20121109b.htm, accessed 12/10/2012; FRB, “Comprehensive
       Capital Analysis and Review 2013 Summary Instructions and Guidance,” 11/9/2012, www.federalreserve.gov/newsevents/press/bcreg/
       bcreg20121109b1.pdf, accessed 12/14/2012.
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   23
SIGTARP HOTLINE
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




PRESS INQUIRIES
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




LEGISLATIVE AFFAIRS
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




OBTAINING COPIES OF TESTIMONY AND REPORTS
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
